U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


           OFFICE OF THE SECRETARY

               Interagency and Other Special
                   Agreements Require Better
                  Management and Oversight


         Inspection Report No. IPE-10418 / September 1998




             Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                 Final Report IPE-10418
Office of Inspector General                                                                                         September 1998



                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          I.        Departmental Process for Preparing and Monitoring Agreements Should Be
                    Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    A.        Commerce agreements do not consistently comply with federal
                              requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                    B.        Oversight process for reviewing departmental agreements is
                              inadequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    C.        Departmental policies and procedures for agreements are clearly
                              needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    D.        Department-wide database for agreements is needed . . . . . . . . . . . . . . . 24

          II.       The Office of the Secretary Should Improve Its Own Process for Preparing,
                    Reviewing, and Administering Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    A.        Agreements are appropriate funding mechanisms and support OS’s
                              mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   30
                    B.        OS agreements are not always properly prepared . . . . . . . . . . . . . . . . .                            32
                    C.        Oversight process for reviewing OS agreements is inadequate . . . . . . . .                                 32
                    D.        OS should develop internal policies and procedures for preparing
                              and reviewing agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34
                    E.        Database to track and control OS agreements is needed . . . . . . . . . . . .                               35

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

APPENDIXES

                    A.        Office of Administration’s response to report . . . . . . . . . . . . . . . . . . . . 41
                    B.        Office of General Counsel’s response to report . . . . . . . . . . . . . . . . . . . 44
U.S. Department of Commerce                                                              Final Report IPE-10418
Office of Inspector General                                                                      September 1998



                                        EXECUTIVE SUMMARY

Commerce bureaus have a variety of missions, such as promoting U.S. exports, developing
innovative technologies, gathering and disseminating statistical data, measuring economic growth,
granting patents and trademarks, promoting minority entrepreneurship, predicting the weather,
and monitoring the nation’s atmospheric and oceanic resources. Some federal agencies and non-
federal organizations have complementary missions or require information or services from
Commerce bureaus to fulfill their own unique missions. Interagency agreements, memoranda of
understanding, memoranda of agreement, and other special agreements are some of the methods
used by these parties to formally agree to share information, provide needed services, or
coordinate their programs to optimize the benefits from each party’s efforts. These agreements
establish the terms of the relationship so that the greatest return is realized from similar or
complementary programs.

In late 1993, the Office of Inspector General was concerned that departmental offices were using,
or could use, agreements to circumvent procurement regulations or to improperly inflate their
budgetary resources. Over the next two years, we performed reviews of four departmental
bureaus, finding significant deficiencies, such as improper accounting of project costs and
undercharging for reimbursable activities. Because of these deficiencies, in 1997, we began a
Department-wide review of interagency and other special agreements.

In fiscal year 1997, Commerce had more than 4,700 agreements, involving approximately
$1.1 billion in funds received for reimbursable activities, obligated to acquire goods or services
from other parties, or committed to joint project agreements.1 We have analyzed more than 250
of those agreements and found that many of them appear to serve important and appropriate
functions, given Commerce’s varied missions. While most of these agreements may be
appropriate, we found that they are frequently not written, approved, and executed properly.
Considering that a significant amount of Commerce resources are committed to agreements, we
believe it is important to bring some of these problems and issues to the attention of the
Department now.

Section I of this report addresses some of the common issues we found during our review of
several Commerce bureaus and includes recommendations about how the Office of the Secretary
(OS), having oversight responsibility for all Commerce bureaus, can address the problems.
Section II identifies specific findings from our review of OS agreements and includes

        1
         The number of Commerce agreements and the associated funding are estimates based on the best
information available to us at the time of this review. As discussed on page 24, neither the Department nor the
bureaus have a database or other record-keeping system that has complete and reliable information about all types
of agreements.

                                                        i
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



recommendations about how OS can improve its internal practices and procedures. We are also
issuing separate reports on the handling of agreements by other Commerce bureaus. After we
complete our Department-wide review of agreements, we will issue a report that summarizes all
of the cross-cutting issues we identified, making further recommendations as needed.

As discussed in Section I of this report, we made the following common observations during our
reviews of Commerce agreements:

l      Departmental process for preparing and monitoring agreements should be
       improved—During the initial stages of our Department-wide review, it became evident
       that the Department did not have a comprehensive set of policies and procedures to guide
       its bureaus in undertaking and formulating agreements. Because of this lack of guidance,
       many agreements are improperly or haphazardly assembled. Often, they (1) cite the
       wrong authority or fail to cite any authority, (2) are not adequately justified, (3) have
       incomplete budget information, (4) lack the signatures of authorized officials, and/or
       (5) have unclear or undefined termination dates or review periods (see page 7).

       In addition, agreements often do not receive adequate budget, procurement, legal, and
       programmatic review. Each Commerce agreement should, for example, receive a
       thorough budget review to ensure that federal resources are available and their use
       justified. Federal regulations also require that contracting officers or other designated
       officials review and approve the justifications supporting agreements between federal
       agencies and authorized by the Economy Act in order to verify that this statutory authority
       is properly used. Legal counsel then needs to determine whether agreements comply with
       legislative and regulatory requirements, cite appropriate legislative authority, and include
       all necessary terms. Finally, each agreement should, as appropriate, receive initial and
       periodic programmatic reviews to evaluate the project’s necessity and propriety (see page
       16).

       Most of these problems with Commerce agreements can be attributed to a lack of
       guidance for preparing and reviewing agreements. Thorough policies and procedures
       would assist officials responsible for agreements by providing such information as when an
       agreement is necessary, what level of approval is required, and what specific language is
       needed. The Department should prepare formal guidance, such as a Department
       Administrative Order or handbook, outlining the types of agreements that can be entered
       into by Commerce bureaus; the minimum necessary content and steps for preparing
       agreements; standard language or form agreements; and the review, approval, and
       renewal policies and procedures that should be followed by all Commerce bureaus
       (see page 21).


                                                ii
U.S. Department of Commerce                                                    Final Report IPE-10418
Office of Inspector General                                                            September 1998



       Finally, we found that few Commerce bureaus are able to adequately track and control
       their agreements. Frequently, bureaus keep lists of agreements for their individual
       operating units, but most bureaus do not have a complete listing of all their agreements
       and no comprehensive departmental inventory exists. As a result, there is no consistent
       and reliable source of information about all departmental agreements. We believe that a
       Department-wide database of agreements would be a useful management and
       administrative tool. The Department and its bureaus could use the information stored in a
       database to provide input into strategic planning and to help administer and maintain
       agreements (see page 24).

We also reviewed how OS prepares, reviews, and administers its own agreements. OS has 19
offices that provide executive direction, policy planning, budget, financial, legal, personnel, and
other administrative services to Commerce bureaus. Like other departmental offices, OS offices
undertake special projects, reimbursable activities, and programmatic efforts with other
governmental and non-governmental entities. As discussed in Section II of this report, we made
the following observations during our review of OS’s agreements:

l      OS should improve its own process for preparing, reviewing, and administering
       agreements—During our OS inspection, we focused on assessing the effectiveness and
       efficiency of OS’s process for entering into monetary and non-monetary agreements with
       departmental offices and outside parties. We found that OS agreements (1) supported
       OS’s mission, (2) were appropriate funding mechanisms, and (3) did not constitute a
       substantial proportion of OS’s overall budgetary resources (see page 30).

       However, we found several examples of incomplete agreements that did not comply with
       federal and departmental requirements. In particular, agreements often (1) failed to cite
       any legal and/or funding authority; (2) were not supported by written justifications;
       (3) lacked full project descriptions, definitions of key terms, disclaimers for funding
       availability if future funding is indicated or implied, and provisions for resolving
       disagreements or negotiating amendments; (4) did not include sufficient budget
       information; or (5) were not properly signed (see page 32).

       In addition, we found that OS’s review process for agreements was inadequate, resulting
       in poor oversight, incomplete agreements, and other deficiencies. OS offices follow an
       inconsistent and mostly undocumented process for preparing and reviewing agreements
       with the result that only some agreements are reviewed by OS’s budget, procurement,
       and/or legal offices (see page 32).

       OS has not developed and implemented policies and procedures to ensure that agreements
       are consistently and properly prepared and reviewed. In the absence of adequate

                                                 iii
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



       guidance, OS officials stated that the primary basis for preparing agreements is using a
       previous agreement as a model. Obviously, any problems with previous agreements are
       then perpetuated through new agreements. To help correct the deficiencies we found, OS
       should prepare internal guidance for OS offices that is in compliance with the forthcoming
       Department-wide guidance we discuss above (see page 34).

       Finally, we found that no OS office has established a database for tracking its agreements.
       While each office was able to provide us with a basic list of its current agreements, we
       found that OS lacks a comprehensive inventory. As a result, cataloging past and present
       OS agreements was extremely difficult. We believe that OS should develop a tracking
       system that is consistent with the Department-wide database we are recommending in
       order to help OS better manage and control its agreements (see page 35).

On page 38 of this report, we offer recommendations to the Chief Financial Officer and Assistant
Secretary for Administration and the General Counsel to address our concerns about
Department-wide and OS internal management and oversight of agreements.




In their responses to our draft report, the Chief Financial Officer and Assistant Secretary for
Administration and the General Counsel generally agreed that the Department’s agreements
require better management and oversight, including better written guidance on how agreements
should be drafted and reviewed. Both the Chief Financial Officer and General Counsel had
specific comments on the format of the new departmental guidance and the roles of the
Department and individual bureaus. They also suggested some changes to the body of the report.
We have taken these comments into consideration and have made changes as appropriate. A copy
of both responses are included in their entirety as appendixes to this report.




                                                iv
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



                                        INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the Office of the Secretary’s (OS) management of
interagency and other special agreements. The inspection was conducted as part of a larger,
Department-wide review of these agreements.

Fieldwork was performed during the period from September 10, 1997, through
November 7, 1997, in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency. At the conclusion of the inspection, we discussed
our observations and recommendations with the Chief Financial Officer and Assistant Secretary
for Administration, the directors of the Department’s Office of Executive Budgeting and
Assistance Management and Office of Acquisition Management, and the Assistant General
Counsel for Administration.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also
done to detect and prevent fraud, waste, and abuse, and to encourage effective, efficient, and
economical operations. By highlighting problems, the OIG intends to help managers move
quickly to address those identified during the inspection and avoid their recurrence in the future.
Inspections may also highlight effective programs or operations, particularly if they may be useful
or adaptable for agency managers or program operations elsewhere.

                                     PURPOSE AND SCOPE

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others (reimbursable agreements), acquiring work from others (obligation
agreements), or coordinating complementary programs (memoranda of understanding or
agreement). These agreements can be between Commerce entities; or between one Commerce
unit and another federal agency, a state or local government agency, a university or other
educational institution, a not-for-profit organization, or a private party. They involve a significant
amount of federal resources, but control processes for these agreements are largely a matter of
agency discretion, unlike those for procurement contracts, grants, or cooperative agreements.




                                                  1
U.S. Department of Commerce                                                                Final Report IPE-10418
Office of Inspector General                                                                        September 1998



We defined interagency and other special agreements as those agreements that are not
procurement contracts, grants, or cooperative agreements.2 For simplicity, we use the term
“agreement” to refer to the various types of interagency or other special agreements within our
scope. Agreements can include memoranda of agreement, memoranda of understanding, joint
project agreements, interagency purchase orders that document both parties’ acceptance, or any
other document that details the terms of an agreement and the parties’ acceptance. Agreements
can transfer funds from one party to the other, bind one or both parties to commit funds or
resources to a project, or not involve any resources.

In 1994, we examined agreements for reimbursable work performed by the National
Telecommunications and Information Administration, finding several problems, including more
staff than necessary for its mission because of its over-reliance on reimbursable funding.3 That
same year we issued letter reports to the International Trade Administration and National Oceanic
and Atmospheric Administration on their respective agreements. Our report to ITA cited the fact
that it had not provided a complete and timely accounting of all agreement costs and expenditures
to other parties to its agreements.4 In our report to the NOAA Comptroller, we expressed our
concerns about NOAA’s ability to produce a concise, credible inventory of interagency
agreements.5 Then, in 1995 and 1996, respectively, the OIG reported that NOAA’s National
Marine Fisheries Service (NMFS) and Office of Oceanic and Atmospheric Research (OAR)
consistently undercharged for services they provided under agreements.6 Due in part to the
concerns raised in these reports, we began our current Department-wide review of agreements.


        2
           The Federal Grant and Cooperative Agreement Act of 1978 defines these types of agreements:
Procurement contracts—legal instruments “reflecting a relationship between the United States Government and a
State, a local government, or other [non-federal] recipient when . . . the principal purpose . . . is to acquire (by
purchase, lease, or barter) property or services for the direct benefit or use of the United States Government” (31
U.S.C. § 6303); Grants—legal instruments used when “(1) the principal purpose of the relationship is to transfer a
thing of value to the State or local government or other recipient to carry out a public purpose of support or
stimulation authorized by a law of the United States . . . and (2) substantial involvement is not expected between
the executive agency and the State, local government, or other recipient when carrying out the activity
contemplated in the agreement” ( 31 U.S.C. § 6304); Cooperative agreements—differ from grants only in that
they are to be used when substantial involvement by the executive agency is expected (31 U.S.C. § 6305).
        3
            NTIA Interagency Agreements, Institute for Telecommunication Sciences, IRM-5723, January 1994.
        4
            Interagency Agreements Conducted by the International Trade Administration, IRM-6290, September
1994.
        5
        Preliminary Findings Regarding Inspection Work on NOAA Interagency Agreements, IRM-6291,
September 1994.
        6
         NMFS Cost Recovery for Sponsored Research Needs Improvement, STL-6528, May 1995; OAR’s Cost
Recovery for Sponsored Research Needs Improvement, STL-7658, June 1996.

                                                         2
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



This is one report in a series to be issued as part of our Department-wide review of agreements.
The purpose of our inspection was to assess the effectiveness and efficiency of OS’s processes for
undertaking monetary and non-monetary agreements with other departmental bureaus and outside
parties. The scope of our inspection included determining: (1) the appropriateness and
advisability of OS agreements as funding mechanisms for specific projects; (2) the extent to which
OS offices are supported through and rely on these agreements; (3) the relevance of agreements
to departmental goals and objectives; and (4) whether OS agreements possibly circumvented
procurement or financial assistance regulations. In addition, we evaluated OS administrative,
managerial, and programmatic oversight of its agreements. Because our other reviews of
Commerce bureaus had similar purposes and scopes, we were able to identify some issues that the
Department, in its oversight capacity, should address. Therefore, this report will also discuss
several of the issues listed above, but from a Department-wide perspective.

We reviewed background documentation relating to the relevant laws and departmental policies
and procedures pertaining to these agreements, including the Economy Act, Commerce’s joint
project authority, the Intergovernmental Cooperation Act, relevant Department Administrative
Orders, and the Department of Commerce Accounting Principles and Standards Handbook. We
also conducted telephone and/or personal interviews with OS staff to further evaluate certain
agreements.

Although the OIG is functionally organized within OS, we excluded OIG agreements from the
scope of this review. In order to ensure independence within the Department, the OIG has a
separate administrative staff, handling procurement, budget, legal, and human resources issues,
and its own internal administrative policies and procedures. Accordingly, the way in which OS
processes agreements is not necessarily the same as the way the OIG handles agreements, nor
would changes to OS procedures necessarily affect OIG procedures. While we did not feel that it
was appropriate to include OIG agreements in this report, we recognize the need to ensure that
our own agreements meet the same high standards we have set for others. Therefore, we
separately reviewed several OIG agreements for compliance with federal and departmental
requirements. We plan to address any deficiencies and to revise our internal guidance to conform
with the recommendations made in this report.

In addition, because we performed a prior inspection of OS’s Office of Computer Services, and
plan a follow-up review, we did not include its agreements in the work performed for this review.
Therefore, for the purposes of this report, we selected a sample of 32 of 80 agreements from the
remaining OS offices that were effective in fiscal year 1997.




                                                3
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



                                       BACKGROUND

Commerce bureaus have a variety of missions, such as promoting U.S. exports, developing
innovative technologies, gathering and disseminating statistical data, measuring economic growth,
granting patents and trademarks, promoting minority entrepreneurship, predicting the weather,
and monitoring the nation’s atmospheric and oceanic resources. Some federal agencies and non-
federal organizations have complementary missions or require information or services from
Commerce bureaus to fulfill their own unique missions. Agreements are one method for these
parties to formally agree to share information, provide needed services, or coordinate their
programs to optimize the benefits from each agency’s efforts.


Figure 1: Department of Commerce Organizational Chart




                                                4
U.S. Department of Commerce                                                              Final Report IPE-10418
Office of Inspector General                                                                      September 1998



In fiscal year 1997, Commerce had more than 4,700 agreements, involving approximately
$1.1 billion in funds received for reimbursable activities, obligated to acquire goods or services
from other parties, or committed to joint project agreements (see Table 1 below).7 Additional
Commerce resources were committed to performing activities under memoranda of understanding
or agreement, which involved no transfers of funds. The distribution of agreements ranges from
15 for the Bureau of Export Administration to more than 2,000 for NOAA.


Table 1: Summary of Department of Commerce Agreements (Fiscal Year 1997)

                                                              Interagency and Other Special Agreements
 Department of Commerce Bureau
                                                                Estimated Value            Number Identified
 Bureau of Export Administration                                          $2,342,000                          15
 Economic and Statistics Administration                                  213,509,000                         756
 Economic Development Administration                                      14,929,000                          33
 International Trade Administration                                       36,209,000                         109
 Minority Business Development Agency                                      3,591,000                          23
 National Oceanic and Atmospheric Administration                         470,015,000                       2,038
 National Telecommunications and Information
 Administration                                                           30,780,000                         120
 Office of the Secretary                                                  23,970,000                         206
 Patent and Trademark Office                                              49,215,000                          55

 Technology Administration                                               267,070,000                       1,400

 Total                                                               $1,111,630,000                       4,755




         7
         The number of Commerce agreements and the associated funding are estimates based on the best
information available to us at the time of this review. As discussed on page 24, neither the Department nor the
bureaus have a database or other record-keeping system that has complete and reliable information about all types
of agreements.

                                                        5
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



OS provides programmatic and administrative oversight to these varied bureaus. In particular, the
Office of the Chief Financial Officer and Assistant Secretary for Administration sets departmental
policy on all administrative matters, including budget, procurement, human resources, and
information technology. The Office of General Counsel, also organized within OS, is responsible
for rendering all legal services for the Department. These OS offices, therefore, have primary
responsibility for establishing policies and procedures for all Commerce agreements.




                                                6
U.S. Department of Commerce                                                    Final Report IPE-10418
Office of Inspector General                                                            September 1998



                           OBSERVATIONS AND CONCLUSIONS

I.     Departmental Process for Preparing and Monitoring Agreements Should Be
       Improved

The Office of the Secretary has managerial responsibility for all Commerce bureaus. The Chief
Financial Officer and Assistant Secretary for Administration is responsible for all departmental
administrative matters and exercises general supervision over the operating units. In addition, the
Office of General Counsel (OGC) advises the Department and its bureaus on all legal matters.
Despite these responsibilities, OS has not fulfilled its oversight duty of ensuring that all
agreements comply with federal requirements and receive necessary programmatic, administrative,
and legal review. As a result, the Department cannot be certain that its bureaus are entering into
legal and fully justified agreements that are consistent with Commerce’s mission and protect it
from all associated risks.


A.     Commerce agreements do not consistently comply with federal requirements

We found that departmental policies for preparing agreements are incomplete. Specifically, the
Department lacks centralized guidance on when and how bureaus should enter into agreements
and what approval or review processes apply. The Department of Commerce Accounting
Principles and Standards Handbook provides basic guidelines on performing reimbursable
services and entering into joint projects. OS’s Office of Management and Organization is
responsible for maintaining departmental directives. However, officials in this office stated that
departmental guidelines for agreements have never been a priority.

Because of this lack of adequate guidance, many agreements are improperly or haphazardly
assembled. Often, they (1) cite the wrong legal authority or fail to cite any authority, (2) are not
adequately justified, (3) lack the signatures of proper authorized officials, (4) have incomplete
budget information, and/or (5) have unclear or undefined termination dates or review periods. As
discussed below, these deficiencies have serious consequences.

Some agreements fail to cite applicable legal authorities

We found that several Commerce bureaus, including OS, fail to consistently cite the applicable
legal authority that is used as the basis for their agreements. Legal authorities typically cited in
agreements include: Economy Act of 1932 (31 U.S.C. §§ 1535-1536), Commerce’s joint project
authority (15 U.S.C. §§ 1525-1526), Intergovernmental Cooperation Act (31 U.S.C. § 6505),
Federal Technology Transfer Act of 1986 (15 U.S.C. §§ 3710a-3710d), and general user fee
authority under 31 U.S.C. § 9701 and Office of Management and Budget (OMB) Circular A-25.

                                                  7
U.S. Department of Commerce                                                                    Final Report IPE-10418
Office of Inspector General                                                                            September 1998



Program authority may also exist as a result of congressional action. For example, specific
authority for another federal agency to transfer funds to a Commerce agency may be contained in
program statutes (e.g., the Clean Water Act, 42 U.S.C. § 7403(b)(4), or the National Sea Grant
College Program Act, 33 U.S.C. § 1123(d)(6)).

Citation of proper legal authority is important because the type of authority chosen for a
particular agreement affects the treatment of funds transferred under the agreement, including the
timing or disposition of receipts. For example, the Economy Act requires that all payments for
work or services performed be deposited to the appropriation or fund against which the charges
have been made. Under the joint project authority, all payments are deposited into a separate
account that may be used to directly pay the costs of work or services performed, to repay
advances, or to refund excess sums when necessary. All receipts for furnishing specialized or
technical services authorized under the Intergovernmental Cooperation Act may be deposited in
the appropriation or funds from which the cost of providing such services has been paid or is to be
charged. In contrast, amounts collected as user fees must be returned to the U.S. Treasury in full
unless existing statutes specifically provide otherwise. Without an accurate citation, Commerce
bureaus cannot be certain that they are properly depositing and handling funds associated with
agreements.

The type of legal authority used also affects the period of availability for funds transferred under
an agreement. For Economy Act agreements, the period of availability of funds transferred may
not exceed the period of availability of the source appropriation. Accordingly, one-year funds
transferred by the requesting agency must be returned at the end of that fiscal year and
deobligated by that agency, to the extent that the performing agency has not performed or
incurred valid obligations under the agreement. When the agreement is based on some statutory
authority other than the Economy Act, the funds will remain payable in full from the appropriation
initially charged, regardless of when performance occurs. The funds are treated the same as
contractual obligations, subject, of course, to the “bona fide needs” rule8 and to any restrictions in
the legislation authorizing the agreement. Therefore, it is necessary to determine the correct
statutory authority for any agreement, in order to apply the proper obligational principles.

The current practice of not directly citing a legal authority in all agreements is generally
inappropriate. Any departmental guidance must address what legal authorities Commerce
bureaus may rely on for their agreements and the need to cite the appropriate authority used for
each agreement.


         8
          The bona fide needs rule states that a fiscal year appropriation may be obligated only to meet a
legitimate, or bona fide, need arising in, or in some cases arising prior to but continuing to exist in, the fiscal year
for which the appropriation is made.

                                                           8
U.S. Department of Commerce                                                    Final Report IPE-10418
Office of Inspector General                                                            September 1998



Agreements are not always adequately justified

In order to construct a valid agreement, requirements defined in each applicable statutory
authority must be met. Additionally, for user fee agreements subject to OMB Circular A-25,
bureaus must ensure that relevant criteria are met before citing specific legal authorities that are
the basis for their agreements. These criteria range from ensuring that necessary funds are
available, to determining that the service a government entity will provide does not compete with
the private sector.

On the following page, Table 2 lists some relevant legal citations and includes factors that must be
considered when creating agreements. While the table contains a list of key legal authorities and
criteria, it is not intended to be inclusive with respect to all legal authorities and requirements.




                                                  9
U.S. Department of Commerce                                                        Final Report IPE-10418
Office of Inspector General                                                                September 1998



Table 2: Summary of Key Legal Authorities and Criteria

        Legal Authority                                    Applicable Criteria
 Economy Act of 1932             a. Other party to the agreement is another government agency.
 (31 U.S.C. § 1535)
                                 b. Funds are available.

                                 c. The head of the ordering agency decides the order is in the best
                                    interest of the government.

                                 d. The agency filling the order is able to provide the goods or
                                    services.
                                 e. The head of the ordering agency decides whether or not the
                                    ordered goods can be provided as conveniently or cheaply by a
                                    commercial enterprise.
 Joint project authority         a. Other participants are eligible entities, including non-profit
 and User fee authority             organizations, research organizations, or public organizations or
 (15 U.S.C. § 1525)                 agencies.
                                 b. Matters are of mutual interest.
                                 c. The total costs (sum of costs for all participants in the joint
                                    project) for such projects must be apportioned equitably.
                                 d. Joint projects may be performed only if (1) the project cannot be
                                    done at all or as effectively without the participation of all parties
                                    to the project and (2) the project is essential to the furtherance of
                                    a departmental program.
 Intergovernmental Cooperation   a. Agencies may provide specialized or technical services for state
 Act                                or local governments that the agency is especially competent and
 (31 U.S.C. § 6505)                 authorized by law to provide.
                                 b. The services must be consistent with and further the
                                    government’s policy of relying on the private enterprise system to
                                    provide services reasonably and quickly available through
                                    ordinary business channels.

                                 c. Services may be provided only when there is a written request for
                                    those services made by the state or local government. The
                                    requestor must also pay all identifiable costs incurred by the
                                    agency in rendering the service.



                                                 10
U.S. Department of Commerce                                                       Final Report IPE-10418
Office of Inspector General                                                               September 1998



        Legal Authority                                    Applicable Criteria
 General user fee authority       a. Agencies may impose a fee for an activity that conveys special
 (OMB Circular A-25)                 benefits to its recipient(s) beyond those accruing to the general
                                     public.

 Federal Technology Transfer      a. Agency program missions shall be advanced.
 Act
 (15 U.S.C. § 3710a)              b. Special consideration shall be given to small businesses and to
                                     businesses that agree to manufacture any products in the United
                                     States.



Written justifications addressing these factors, although logical, are not always required. The
Federal Acquisition Regulation (FAR) prescribes the policies and procedures applicable to
interagency acquisitions only under the Economy Act. When a government agency purchases a
good or service from another government agency, the requesting agency must prepare a
determination and finding (D&F). D&Fs document that “(1) use of an interagency acquisition is
in the best interest of the Government; and (2) the supplies and services cannot be obtained as
conveniently or economically by contracting directly with a private source.”9 Additional matters
must be addressed in the D&F if the Economy Act agreement requires contracting by the
servicing agency.10 According to the FAR, a D&F “shall be approved by a contracting officer of
the requesting agency with authority to contract for the supplies or services to be ordered, or by
another official designated by the agency head.”11 Specifically, a contracting officer ensures that
authorities and funding are adequate (see section I, subsection B, below for a discussion of what
review is required).

The Economy Act also applies to orders between major organizational units within an agency, but
the FAR specifies that agency regulations will govern these intra-agency transfers.12 Commerce
does not have any internal guidance implementing this section of the FAR. Therefore, there is no
standard for documenting that transfers within Commerce are the most economical or convenient
solution and are not in competition with the private sector. The Department should ensure that a



       9
        FAR § 17.503(a).
       10
            FAR § 17.503(b).
       11
            FAR § 17.503(c).
       12
            FAR § 17.500(a).

                                                  11
U.S. Department of Commerce                                                               Final Report IPE-10418
Office of Inspector General                                                                       September 1998



standard method of documenting this determination is developed and that documentation of the
determination is required for all intra-agency Economy Act transfers.

In addition, to the extent that the Department is engaging in a commercial activity, an economic
analysis in accordance with OMB Circular A-76 must be completed.13 Circular A-76 prohibits the
government from starting or continuing activities to provide a commercial product or service if
the product or service can be procured more economically from a commercial source. Unless the
transaction lies within certain exceptions outlined in the circular and its supplement,14 an agency
that wishes to procure goods or services from another federal agency must prepare an analysis of
its requirements to determine that use of another agency’s resources is necessary.

The FAR requirement for a D&F for Economy Act transfers appears to be the only regulation that
explicitly requires a written justification addressing relevant legal criteria.15 Yet, for all types of
agreements regardless of the legal authority cited, written justifications, which demonstrate that
the legal criteria have been met, represent a good management practice. Several of the criteria
listed in Table 2 are complex, such as the joint project authority requirement that the project
cannot be done at all or as effectively without the participation of all parties. Without the aid of a
written justification, it may be difficult to show that the criteria for some agreements have been
met. In addition, managers or other officials who review agreements that they did not negotiate
need sufficient written documentation to determine that all relevant criteria have been met.

We found that often only limited supporting documentation was included with agreements to
indicate that Commerce officials had considered the factors required to support the agreements’
legal citations. In particular, for those agreements where Commerce pays for services from other
federal agencies under the Economy Act, the bureaus do not consistently prepare D&Fs in
compliance with the FAR. We also found that for intra-agency transfers Commerce agencies
often do not document their determination that ordered goods and services cannot be provided by
procurement contract as conveniently or cheaply by a commercial enterprise.

While the applicable statutory authorities do not necessarily require written justifications
addressing the applicable criteria, non-systematic review of complex issues and determinations,
many of which are not documented, often results in insufficient consideration being given to many


        13
             FAR § 17.502(c), citing FAR § 7.3.
        14
             OMB Circular A-76 Supplement (March 1996), Part I, Chapter 1, section C.
        15
           In addition to a D&F, the FAR requires that Economy Act agreements include specific provisions, such
as a description of the supplies or services required, delivery requirements, a funds citation, payment terms, and
acquisition authority, as may be appropriate (FAR § 17.504(b)).

                                                        12
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



of the criteria that must be met for these authorities to be used. The Department should review
existing laws, including those listed in Table 2, and determine what requirements should be
supported by written justifications. Then, the Department should provide adequate guidance and
oversight to the bureaus to ensure that agreements include appropriate written documentation to
prove that the relevant criteria have been met. Generally, a written justification should be
incorporated into the agreement. Otherwise, a copy must accompany the agreement through the
review process and be kept on file with the final agreement.

Many agreements are not signed by the appropriate official

During our review of agreements throughout the Department, we found that many agreements
were not approved and signed by an appropriate official. In some cases, bureau officials
expressed confusion over various informal delegations of authority and admitted that they did not
know the appropriate approval procedures. Some, but not all, bureaus have express delegations
of signature authority for agreements. There are varying criteria for who can approve and sign
reimbursable, obligation, and unfunded agreements. Often, a dollar threshold or programmatic
priorities determine who should sign an agreement, but there is no consistent policy.

The Department should ensure that each agreement receives the appropriate level of approval and
is signed by an authorized official. For each type of agreement (reimbursable, obligation, or
unfunded), criteria should be established for Department-level approval and delegations to the
bureaus. All relevant information for each agreement should also be provided to the designated
official, including justifications and budget documentation. These officials could then be held
accountable for ensuring that all agreements are consistent with Commerce’s mission and involve
an appropriate use of resources.

Agreements often have incomplete budget information

Commerce agreements do not always include total project costs combined with acceptable budget
summaries. Agreements should include total project costs to ensure full cost recovery as required
by federal laws, OMB Circular A-25, the Department of Commerce Accounting Principles and
Standards Handbook, and bureau-level guidance, such as the NOAA Budget Handbook. In
addition, estimating total project costs, including the performing agency’s contributions, and
budget summaries may be necessary to comply with other applicable legal authorities. For
example, if a project is performed under the joint project authority, the agreement should indicate
the contributions of each organization and demonstrate that the costs are apportioned equitably in
relation to the benefits received.

In practice, some programs, such as NOAA’s Office of Oceanic and Atmospheric Research, often
rely on research proposals to define and justify reimbursable projects. In addition to a statement

                                                13
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



of work, proposals include total project costs and budget summaries. However, OAR only
recently began requiring its laboratories to forward proposals with the formal agreement for
review by the officials responsible for signing the agreement. In addition, the proposals are not
always referenced in the agreements. Incorporating the proposals by reference and attaching the
proposal to the agreement or including proposal cost information in the actual agreement would
greatly improve the quality of Commerce agreements.

When agreements do not identify total project costs, managers and reviewers cannot accurately
determine whether full costs are being recovered or if costs have been apportioned equitably for
joint projects. Also, if total project costs are not identified, an agreement may not receive
approval at an appropriate level within the organization. Accurate, detailed budget summaries
also assist managers and reviewers in assessing an estimate of the full cost of an agreement.
Therefore, Commerce officials reviewing agreements should ensure that total project costs and
budget summaries, including Commerce’s contributing share, are defined in the agreement. If that
information is provided in a proposal exclusively, Commerce should require that the proposal be
expressly incorporated by reference in the agreement.

Termination dates or review periods are not always defined

Some Commerce agreements we reviewed did not define a termination date or review period.
While there is no departmental guidance on termination dates and review periods, some bureaus
have internal policies. For example, the NOAA Budget Handbook requires that reimbursable
agreements include terms stating (1) when and under what circumstances the agreement is to be
terminated and (2) that the agreement must be reviewed periodically, but not less than annually.
NOAA Administrative Order 201-105 requires Assistant Administrators and line office directors
to (1) ensure that each memorandum of understanding or agreement includes mandatory start and
termination dates and (2) periodically review each agreement to determine whether the agreement
should be renewed, amended, updated, or canceled and whether the provisions and objectives are
being met. In addition, the National Weather Service issued a policy in June 1994 requiring that
each of its agreements be reviewed every three years.

Defining these relevant dates or time periods is important to ensure that agreements are properly
administered and kept up-to-date. When the stated performance period is undefined or indefinite,
it is difficult to determine whether the agreement is still valid and whether reassessment of the
agreement ever occurred. In addition, even if a need still exists, as time passes, critical features of
the project, such as the level of funding or other resources, may need modification. An
ill-defined performance period may ultimately result in the performance of work that is no longer
mission-related, the waste of funds and personnel, or the inequitable apportioning of project costs.



                                                  14
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



All agreements should have a defined performance period with a stated effective date and when
possible, a specific termination date. For agreements that continue over an extended term where
it is not feasible to define a termination date, the agreement should have a provision for a periodic
review and amendment by mutual consent of the parties.

Agreement negotiation process should be improved

As part of any new policies and procedures for agreements, the Department should include a more
formal method of ensuring that agreements prepared by other parties are complete before they are
signed by Commerce officials. During our review of other Commerce bureaus, we found that
agreements are often deficient due in part to the fact that other parties prepared the agreements
and the Commerce bureau failed to negotiate with the other party to make necessary changes
before the agreements were signed. This is most often the case when the Commerce bureau
performs reimbursable work for others, rather than purchasing services.

In one case, OAR officials are making some effort to identify missing terms and notify the other
parties of what those terms should be. Currently, OAR prepares a cover letter that is sent to the
other party with the signed agreement. The letter, signed by the OAR official who signed the
agreement, acknowledges receipt and acceptance of the attached agreement and includes several
standard items, such as the amount of the agreement, legal citation, termination date, and billing
terms, whether or not those terms are stated in the agreement. However, this practice may raise
legal issues because the additional terms in the letter are not formally agreed to by the other party.

We suggest that the Department work with the bureaus to establish a formal procedure for
ensuring that agreements prepared by other parties contain all necessary information. Standard
language should be developed and sent to the sponsoring party when negotiations on a project
first begin. The standard language would inform the other party of basic elements that must be
included in any formal agreement, including legal citation, termination date or performance
period, and total project costs. This notice could be incorporated into any initial correspondence
or be presented as a brief standard form. Forms of this nature, such as those used by the Census
Bureau or the Environmental Protection Agency, would be useful resources for developing a
standard form.

As a second step, if a final agreement is still incomplete, Commerce bureaus should prepare a
formal modification or amendment that specifies missing terms and is signed by both parties. The
bureaus could use the same standard form used during negotiations. To ensure full compliance,
the programs should not be permitted to begin work on a project until the agreement and any
modifications or amendments needed to include missing terms are signed. With the common and
persistent deficiencies found throughout the Department, a procedure that formally notifies other
agencies and/or parties of necessary terms and subsequently modifies or amends incomplete

                                                 15
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



agreements is essential to ensure future compliance and to protect Commerce from any risks
associated with these deficiencies.



In his response to our draft report, the Chief Financial Officer responded to our statement on page
seven that “officials in this office stated that departmental guidelines for agreements have never
been a priority.” The Chief Financial Officer agreed that such guidelines have not yet been
established, but he said that they will now receive the attention of his office. He also provided
examples of how the Department has “been tangentially involved in the effort to better understand
and manage the use of these agreements within the Department for some time.”

B.     Oversight process for reviewing departmental agreements is inadequate

There is an opportunity for the Department to create a process that could greatly improve the
review of agreements throughout Commerce. Because the Department is in the unique position
of overseeing many administrative details for departmental bureaus and offices, it naturally
follows that it is in a position to ensure that agreements contain all required elements before they
are finalized. There are four specific areas of review that the Department should consider:
budget, procurement, legal, and programmatic.

Agreements do not always receive adequate budget review

Agreements involve a significant amount of resources—either the transfer of funds or the
commitment of funds or resources to a project. Each Commerce agreement should then receive a
thorough budget review to ensure that federal resources are wisely and justifiably used. It would
be neither essential nor efficient for the budget review to take place at the Department level for all
agreements. In any departmental guidance on agreements, the Department therefore should state
what budget documentation and detail are necessary for the bureau budget offices to approve the
obligation of resources to a performing agency or entity, or to receive reimbursable or advance
funding from a sponsoring agency or entity. Individual bureaus would then be responsible for
reviewing their own agreements for compliance with departmental and
bureau-level guidance.




                                                 16
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



Contracting officers do not regularly review and approve agreements

With regard to procurement review, the FAR provides that D&Fs, which support agreements that
transfer funds under the Economy Act, should “be approved by a contracting officer of the
requesting agency with authority to contract for the supplies or services to be ordered, or by
another official designated by the agency head.”16 However, throughout Commerce, we found
that contracting officers or designated officials are neither asking for D&Fs nor not always
reviewing D&Fs. While OGC stated that they currently require bureaus to provide a copy of the
D&F when they review Economy Act agreements, we found examples of agreements approved by
OGC that did not have D&Fs.

Officials in OS’s Office of Acquisition Management (OAM) were aware of the FAR requirements,
but acknowledged that they currently do not review most Economy Act agreements and
supporting D&Fs. We believe that OAM contracting officers should approve all Economy Act
fund transfers and D&Fs that exceed a specific dollar threshold. OS should then instruct the
bureaus to designate contracting officers or other qualified officials to approve all Economy Act
fund transfers that fall below that threshold. This review is critical to meet the FAR requirements
and also to ensure that the Economy Act is not being used to acquire goods and services by
circumventing the procedures, time, and cost of open competition.

Agreements do not always receive legal review

We found that many Commerce agreements do not receive any legal review before becoming
effective. If an agreement has not been reviewed by legal counsel, it may (1) not comply with
legislative and regulatory requirements, (2) not cite appropriate legislative authority, or
(3) include terms unacceptable to or unnecessary for a federal agency. Currently, there is no
Department-wide order or regulation that establishes criteria for when legal review of agreements
is required. Although an April 1994 memorandum from Commerce’s General Counsel states that
Economy Act and joint project agreements “should” be sent to OGC for review, bureau-level
personnel have interpreted this memorandum as allowing some amount of discretion. Even
though OGC officials told us that they expect to review all funded and unfunded agreements
unless a specific delegation has been granted, they were not aware of the large number of
agreements that they do not review. Similarly, most of the bureaus do not have clear policies on
when bureau-level and/or OGC legal review is required for agreements.

There needs to be a clear policy that details when agreements should be submitted for legal
review. Because it may not be practical or necessary for all agreements to be reviewed by OGC,


       16
            FAR § 17.503 (c).

                                                17
U.S. Department of Commerce                                                                 Final Report IPE-10418
Office of Inspector General                                                                         September 1998



we recognize that there should be some criteria developed to assist bureaus and offices in
determining which agreements must be reviewed by OGC and which should have bureau-level
legal review. For example, the Department could require OGC review of agreements that are
over a certain dollar threshold, commit significant funding or other resources, include irregular
terms and conditions, involve a private or foreign party, are signed at the line office level or
higher, or potentially involve significant departmental liability.

OGC also recognizes the need for criteria and has worked with at least one departmental office,
the National Marine Fisheries Service, to develop thresholds for legal review of agreements.17
OGC would like to develop similar thresholds for other departmental offices—an initiative that
we support. OGC should first determine whether there are some generic standards for legal
review that should apply to all departmental offices. Exceptions could then be granted, allowing
a certain level of discretion for requiring a legal review in well defined situations. Any generic
thresholds should be incorporated into the forthcoming departmental guidance on agreements
with the condition that other more tailored criteria could be issued to supplement the Department-
wide standards.

With new guidelines for legal review, we are concerned that OGC’s workload could significantly
increase, affecting its ability to complete reviews within a reasonable amount of time. Currently,
OGC reviews only about 30 agreements per month. Commerce bureaus had over 4,700
agreements in place in fiscal year 1997. As these agreements are renewed or reviewed and new
agreements are created, a requirement for regular legal review could significantly impact OGC.
OGC officials stated that they could handle the review of additional agreements, but they had not
evaluated the potential workload increase. Program officials are already concerned about the
negative effects of delays caused by lengthy legal reviews and fear that a significant increase in
agreements being reviewed by OGC would further delay the process.

We agree with departmental and bureau officials that only certain bureau agreements need to be
reviewed by OGC. Consequently, departmental managers and OGC should balance any new
requirements for legal review against the potential workload increase. In order to alleviate some
of the concerns about lengthy delays, the policy should state how much lead time is required to
obtain legal review. The bureaus must then provide agreements to OGC or bureau counsel in
sufficient time for legal review to be completed before a project is expected to start.



         17
            The new NMFS guidelines state that OGC will review all NMFS agreements except (1) Economy Act
agreements where less than $100,000 is being transferred or (2) unfunded agreements with other federal agencies
that are for the period of five years or less. However, if personal property is being transferred or loaned under an
unfunded agreement, OGC review must be obtained. Furthermore, all joint project agreements, regardless of
funding, must continue to be cleared by OGC.

                                                         18
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



Legal counsel should also periodically contact the program office to inform program officials
about the status of legal review. Program officials can then better anticipate when legal review
will be completed. We were told that OGC currently requires its attorneys to contact the relevant
program office within two days of receiving an agreement. We encourage OGC and the bureau
counsels to also provide feedback to program officials when their review will not be completed
within their deadline.

To implement this type of feedback policy efficiently and to properly manage their workload
internally, OGC and the bureau counsels need systems to track the progress of legal review on
specific agreements. OGC’s current system of tracking projects, including the review of
agreements, records a due date and other relevant information, but cannot be queried to determine
what projects are coming due. OGC should consider upgrading or changing the format of its
tracking system to better manage this information. Similarly, bureau counsels should implement
or update their tracking systems accordingly. Program offices should also be provided a central
point of contact in both OGC and bureau counsel offices for determining the status of legal review
on any particular agreement.

In addition to a clear policy on legal review, OGC should develop some standard language or
form agreements for use by Commerce bureaus. We understand that some form agreements have
been developed in the past. For example, in 1990, NOAA Counsel provided OAR a prototype
agreement for orders from non-federal parties. The NOAA Budget Handbook and NOAA
Administrative Order 201-105 on memoranda of understanding or agreement also include some
standard language. OGC recently distributed a sample joint project agreement during a NMFS
training session on agreements. OGC noted in its response that the NOAA sample agreements we
mention above may require revision. We maintain, however, that pre-approved language that is
regularly reviewed and updated should be encouraged in order to facilitate the process by making
agreements easier to draft and to review.

Programmatic review should be formalized

Finally, the Department should ensure that Commerce bureaus conduct adequate programmatic
review of their agreements. We found that agreements receive various levels of programmatic
review, but often these review processes are undocumented. As discussed on page 9, some legal
authorities that authorize agreements include complex criteria that must be met. In addition to
determining what written justifications should be prepared for these criteria, the Department
should require the bureaus to determine the appropriate level of review. Designated offices or
officials could then be held accountable for the appropriateness of agreements.

The Department should also require the bureaus to periodically reevaluate the necessity and
appropriateness of individual agreements. As discussed on page 14, many of the agreements we

                                               19
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



reviewed contained indefinite duration provisions, often stating that the agreement is valid until
terminated by one or both parties. Even when provisions for annual or periodic reviews were
included, we found that most agreements were never reevaluated. Without a periodic
reassessment, there is no assurance that agreements continue to, among other things, (1) comply
with legislative and regulatory authority, (2) meet legislative criteria, (3) be mission-related, or (4)
protect the government’s interests. In addition, significant departmental funds may be wasted if
due diligence is not exercised. We believe that the Department needs to ensure that agreements
are reviewed and revised or renewed as appropriate, at least every three years.



We recommended that OGC’s and the bureau counsels’ tracking systems be upgraded or changed
to help facilitate timely legal reviews of agreements and to provide information about the status of
legal reviews. However, the General Counsel strongly objected to our recommendation that
OGC’s system be changed. The General Counsel stated that OGC’s system was effective and
efficient and specifically designed to meet OGC’s requirements–a word processing-based system
containing opinions and comments made by OGC attorneys covering all legal issues that OGC
reviews for the Department–and it should not be analyzed from the limited perspective of the
Department’s need to track agreements.

Although OGC’s system is meeting OGC’s needs, it is not meeting the needs of departmental
personnel. Based on our Department-wide review of agreements, we found that bureau-level
personnel have two major problems with OGC legal reviews. First, because OGC cannot readily
query its system to determine what projects are coming due, bureau personnel stated that they are
frequently unable to get information about the status of legal reviews. OGC stated that they have
a designated person for bureau personnel to contact to determine the status of reviews, but some
bureau personnel did not know there was a contact and some could not get adequate status
information.

Second, and more importantly, bureau personnel are concerned about lengthy legal reviews and
delays. The General Counsel stated that because we did not review OGC’s system, we “did not
find a single instance of a deficiency in that system which resulted in untimely review of
agreements or the inability to obtain status information.” While we recognize that there may be
appropriate reasons for delays in the legal review process, we also believe that there is room for
improvement in the review process given the complaints we received. We interviewed numerous
bureau-level personnel to determine their satisfaction with OGC’s system and the legal review
process. Personnel from five bureaus provided numerous examples of lengthy reviews and two
bureaus stopped sending agreements to OGC because of lengthy legal reviews. Bureau personnel
stated that some reviews took one to six months, which they felt was excessive and severely
impacted their operations. In fact, bureau personnel told us that they had to cancel some


                                                  20
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



agreements because of lengthy OGC review and that they were generally discouraged about the
legal review process.

The General Counsel is correct that OGC’s and the Department’s systems should be analyzed
separately. We recommended that the Department establish a new Department-wide database of
all agreements. However, the Department’s database will not ensure timely legal reviews and
identify the status of legal reviews. These tasks remain with OGC and the bureau counsels’
systems. Even if there are valid reasons for lengthy legal reviews of some agreements, bureau
personnel should expect timely feedback when there are legal questions about an agreement being
reviewed. As a result, we reaffirm our recommendation that OGC and the bureaus modify their
tracking systems to (1) provide on-line status information and (2) ensure timely legal reviews.


C.     Departmental policies and procedures for agreements are clearly needed

A thorough policy on agreements is a necessary resource for officials preparing and reviewing
agreements, by providing such information as when an agreement is necessary, what level of
approval is required, and what specific language is needed. Considering the problems discussed
above, the Department should prepare formal policies and procedures, such as a Department
Administrative Order or handbook, outlining the types of agreements that can be entered into by
Commerce bureaus; the minimum necessary content and steps for preparing agreements; standard
language or form agreements; and the review, approval, and renewal policies and procedures that
should be followed by all Commerce bureaus.

This guidance should be comprehensive, specifying how each type of agreement should be
prepared and reviewed. For example, unfunded agreements may only require programmatic and
legal review, while obligation agreements should be reviewed by procurement, budget, legal, and
program offices. At a minimum, the new directive should:

l      Require all Commerce agreements to include at least the following items: citation of legal
       authorities, applicable written justifications, signatures by the appropriate bureau and
       departmental officials, total project costs, budget summaries, and termination dates and/or
       review periods. There should also be formal procedures that ensure agreements prepared
       by external parties contain all necessary information.

l      Require bureaus to prepare D&Fs for interagency transfers authorized by the Economy
       Act. For all intra-agency Economy Act transfers, require bureaus to prepare justifications
       that support their determination that purchasing from a federal entity is cheaper or more
       convenient than purchasing from a commercial entity.


                                               21
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



l      Direct bureaus to establish appropriate internal review processes for each type of
       agreement. Explicitly state the responsibilities of the various offices, the minimum path of
       review and approval, and thresholds for review.

l      Direct the bureau budget offices to review budget documentation for every agreement and
       to approve the obligation of resources to a performing agency or entity or the receipt of
       reimbursements/advances from a sponsoring agency or entity.

l      State that Economy Act orders and supporting D&Fs, above a specific threshold, must be
       reviewed by OAM contracting officers. Economy Act orders below that threshold should
       be delegated to bureau contracting officers or other designated officials for review.

l      Provide generic, Department-wide standards for which agreements require OGC and/or
       bureau counsel review. For those bureaus that require greater oversight, OGC should
       negotiate more specific criteria for legal review of their agreements.

l      Require the bureaus to perform initial and periodic review of programmatic justifications
       for every agreement. Reviews should be at least every three years.

Some bureaus and line offices, including Census, the National Institute of Standards and
Technology, and NOAA, already have or recently prepared guidance on some types of
agreements. NOAA prepared a directive for its agreements not including a transfer of funds in
October 1992, and Census prepared guidelines for its obligation agreements in July 1997.
NOAA’s directive outlines agreement responsibilities and policies of each NOAA office, and
Census’s guidelines provide the contents and steps for preparing agreements of each Census
office. For example, Census’s guidelines require a citation of legal authority, a statement of work,
financial information, termination provisions, and authorizations. OGC stated that it is working
with Census and NOAA to revise their guidelines, and it must review NIST guidelines to
determine their adequacy. Once guidelines of these bureaus are finalized, they can be used as
examples for other bureaus.

In addition to NOAA’s directive, NMFS and OAR have developed checklists to follow while
preparing agreements. OAR’s checklist includes basic information about the agreement (such as
type of sponsor and period of performance), substantive justifications, applicable legal authority,
strategic plan elements, budget information, billing basis and cycle, and waiver justification for not
seeking advance funding from non-federal sources. The official preparing an agreement must
mark certain boxes to identify which option in each section applies. Once completed, the
checklist will remain on file with the agreement and serve as an assurance that each of the
required elements has been addressed. If consistently applied and regularly updated, the checklist
should improve compliance with federal requirements for agreements.

                                                 22
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



We intend to evaluate the individual bureau guidance in separate reports on those bureaus.
However, the Department should evaluate the usefulness of these and other bureau guidance in
preparing departmental guidance on agreements. OGC noted in its response that it has found
problems with some existing bureau guidance and that existing guidance should be fully reviewed
and cleared.

To be effective, any new or updated policies and procedures should be widely distributed. The
Department should encourage the bureaus to provide training on how to prepare and process
agreements. We note that OGC has recently taken a more active role in bureau training programs
by making presentations on agreements and other relevant subjects. The Department should also
make all information relevant to preparing and processing agreements easily accessible by posting
documents on its intranet and presenting this information at any relevant departmental
conferences. Any subsequent changes in federal, departmental, or agency regulations or
procedures and applicable laws should also be widely distributed.



In its response to our draft report, the Chief Financial Officer and General Counsel agreed that
uniform Department-wide policies and procedures for use by all bureaus should be established.
The Chief Financial Officer agreed to establish uniform Department-wide policies and procedures
using a handbook format that, once issued, would be broadly disseminated and electronically
accessible. Both believe that bureaus should be allowed discretion in designing policies and
procedures that meet their individual needs. OGC believed that the bureaus should be responsible
for preparing detailed guidance, subject to departmental review and approval.

We agree that a new departmental handbook is necessary and bureau guidance should supplement
departmental guidance and be more detailed in establishing who exactly should review agreements
and describing any special authority a bureau might have. However, we have two concerns about
the Chief Financial Officer’s and General Counsel’s responses. First, although the new handbook
will comprise “basic elements” to document an agreement and “circumstances” under which
departmental review will be required, we want to ensure that the handbook includes the seven
items we outlined in Recommendation 1. We provided these very specific items to enhance the
Department’s review and approval process. Second, we disagree with the General Counsel’s
recommendation that the Department only prescribe a very general requirement for bureau
procedures on agreements. This approach would require each bureau to develop its own
guidance, unnecessarily duplicating effort and perhaps leading to inconsistencies in the
procedures. The Department should follow the format of other departmental guidance, including
the financial assistance handbook, for the appropriate level of detail and consistency.




                                               23
U.S. Department of Commerce                                                   Final Report IPE-10418
Office of Inspector General                                                           September 1998



D.     Department-wide database for agreements is needed

During our review of Commerce bureaus and the systems and processes they have for managing
agreements, we found that few bureaus are able to adequately track and control their agreements.
Frequently, bureaus keep lists of agreements for their individual operating units, but most bureaus
do not have a complete listing of all their agreements and no comprehensive departmental
inventory exists. As a result, we found inconsistent reporting of agreements among Commerce
bureaus. The bureaus had different ways of classifying agreements, and frequently overlooked
agreements between their bureau and another Commerce agency. In some cases, bureaus still
record expired agreements and some record open but inactive agreements. Consequently, we
experienced significant difficulty collecting an accurate inventory of agreements by agency or, in
the case of NOAA, by major line office.

A central database of agreements would be a useful management and administrative tool. The
Government Performance and Results Act requires federal agencies to describe coordination and
planning with other agencies on shared or similar functions and programs. In July 1997, the
House Science Committee criticized Commerce’s strategic plan for failing to adequately discuss
coordination of cross-cutting programs. The Department has since included more information
about program “linkages” in its strategic plan for 1997-2002. For each strategic theme (economic
infrastructure, science/technology/information, and resource and asset management and
stewardship), the Department describes linkages with other federal and non-federal parties that
support these strategic themes. Basic information from a departmental database of agreements
could be used to further develop these linkages.

From an administrative perspective, a central database of agreements would help Commerce
bureaus in administering and maintaining their agreements. The Federal Assistance Awards Data
System requires that the Department maintain centralized files for procurement contracts, grants,
and cooperative agreements in order to provide better control and oversight.18 We believe that
there is nothing unique about agreements that would preclude them from being similarly reviewed
and maintained. By having relevant dates in the system, programs could easily identify which
agreements are due for renewal, termination, or review. Also, officials could quickly respond to
inquiries on particular agreements by accessing the system by identifying number, project title, or
contact name.




       18
            31 U.S.C. § 6102a.

                                                24
U.S. Department of Commerce                                                    Final Report IPE-10418
Office of Inspector General                                                            September 1998



During our review, OS officials agreed that a database of summary information for each
agreement should be established and maintained, allowing OS and the bureaus to quickly obtain
agreement information and determine what agreements exist. We believe that at least the
following summary information on each agreement should be stored in an electronic database:
purpose or title, parties, termination date, review period, funding information, legal authority, and
contact person or office. The database should also identify the type of agreement, such as
memoranda of understanding or agreement, reimbursable agreement, or obligation agreement.
This system could also be used to establish a document numbering system. Each entry would be
assigned a unique number, which would then be placed on the actual agreement and any related
documents. Commerce bureaus could then better identify and track the physical documents.

Given the large number of agreements and their importance to achieving Commerce’s mission, a
comprehensive database of agreements would help management and other responsible officials
better control and maintain their agreements. OS officials suggested to us that the Department’s
Risk Management Team evaluate the composition of a Department-wide database of agreements.
Because a Department-wide database would be a major effort and possibly involve significant
resources to develop, we agree that the Department should carefully consider what approach to
take in creating a central database of agreements.

We have identified two options for creating a central list of agreements. First, the Department
could develop one standard system or database program that each bureau can access to add,
modify, or delete agreements. Alternatively, each bureau could maintain its own database that is
compatible with requirements specified by the Department. The Department would define which
data elements are required for a centralized list and then require the bureaus to periodically
provide the information electronically to be uploaded into the central list at the Department level.
We request that the Department inform us of its final decision on how it will implement this
recommendation.



In his response to our draft report, the Chief Financial Officer agreed with our recommendation
that consistent and reliable data should be maintained and readily accessible for all agreements
administered by the Department and its bureaus. The Chief Financial Officer stated that the
second option identified under our recommendation, a “bureau-maintained feeder system,”
appears to be the most workable. However, the Chief Financial Officer agreed that departmental
personnel will determine whether one standard system or multiple bureau systems should be
developed. The General Counsel agreed that a database should be developed to help catalog and




                                                 25
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



track agreements, but the General Counsel thought that the bureaus should be responsible for
developing databases that are designed to meet their own needs. The General Counsel also stated
that the Chief Financial Officer should then determine whether maintenance of a central database,
in addition to bureau databases, will provide sufficient benefits to justify the resources that will be
required to maintain it.




                                                  26
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



II.    The Office of the Secretary Should Improve Its Own Process for Preparing,
       Reviewing, and Administering Agreements

As part of our Department-wide review of agreements, we selected OS as one of 11 Commerce
bureaus or line offices to review in depth. As shown below, OS consists of 19 staff offices that
provide executive direction, planning, budget, financial, legal, human resources, and other
administrative services to Commerce bureaus. Many of these offices either have agreements of
their own or have some responsibility for reviewing or approving agreements.




OS had 207 agreements that were effective in fiscal year 1997. Table 3, on the following page,
shows the number of agreements by OS office. Many of the agreements are within the Office of
Computer Services (OCS). Because we performed a prior inspection of OCS, and plan a
full-scale follow-up review that will include a look at OCS agreements, we did not include its 109
agreements in the work performed for this review. We also excluded OIG agreements from our
sample. However, we separately reviewed several OIG agreements for compliance with federal

                                                27
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



and departmental requirements. We will address any deficiencies in those agreements and revise
our internal guidance to conform with the recommendations made in this report. Having made
these exclusions, we selected a sample of 32 of the 80 agreements from the remaining OS offices.

Table 3: Summary of OS Agreements (Fiscal Year 1997)

                                                              Interagency and Other Special
 OS office                                                             Agreements

                                                              Number                 Value

 Office of Computer Services                                            109           $8,046,641

 Office of Inspector General                                              18            1,304,848

 Office of Human Resources Management                                     16            5,185,620

 Office of Executive Budgeting and Assistance Management                  14            1,550,533

 Office of Administrative Services                                        13            1,507,066

 Office of Systems and Telecommunications Management                       9             104,378

 Office of General Counsel                                                 8            1,896,455

 Office of Civil Rights                                                    7             146,100

 Office of White House Liaison                                             6                 62,723

 Office of Acquisition Management                                          2                 40,000

 Office of Financial Management                                            2            3,875,071

 Office of Security                                                        2             251,000

 Office of Consumer Affairs                                                1                     0

 Office of Budget, Management, and Information                             0                     0

 Office of Business Liaison                                                0                     0

 Office of Legislative and Intergovernmental Affairs                       0                     0

 Office of Policy and Strategic Planning                                   0                     0

 Office of Public Affairs                                                  0                     0

 Office of Small and Disadvantaged Business Utilization                    0                     0
 Total                                                                  207        $23,970,435


                                                       28
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



We found three different types of OS agreements. First, obligation agreements were for
administrative services or goods provided by another departmental office or outside agency.
Conversely, reimbursable agreements provided funding to OS units for personnel details and
administrative services, and for implementing the Commerce Administrative Management System.
Finally, unfunded agreements (OS did not pay or receive funds) were primarily for
non-reimbursable personnel details and a joint project between the Minority Business
Development Agency and OS’s Office of Consumer Affairs.

We found that the 32 OS agreements we reviewed (1) were nearly evenly divided between
departmental bureaus and external agencies, such as the State Department and the General
Services Administration; (2) were primarily obligation agreements for information or services; (3)
averaged about $495,000 for the 26 funded agreements; and (4) largely lacked any stated legal
authority. Table 4 summarizes OS agreements by source, type, legal authority, and average dollar
amount.

Table 4: Sample of 32 OS Agreements by Source, Type, Legal Authority, and Average
         Dollar Amount

       Agreements by Source                                         Number of Agreements
            External agencies                                                  18
            Internal agencies                                                  14
       Agreements by Type                                           Number of Agreements
            Obligations                                                        18
            Reimbursables                                                       8
            Unfunded agreements                                                 6
       Agreements by Legal Authority                                Number of Agreements
            No authority cited                                                 19
            Economy Act (31 U.S.C. §§ 1535-1536)                                5
            Joint project authority (15 U.S.C. § 1525)                          2
            Other authority cited                                               6
       Agreements by Average Dollar Amount                          Average Dollar Amount
            Obligations (18 agreements)                                  $531,000
            Reimbursables (8 agreements)                                   413,000
            Unfunded agreements (6 agreements)                                   0




                                                 29
U.S. Department of Commerce                                                  Final Report IPE-10418
Office of Inspector General                                                          September 1998



While OS agreements seem to be appropriate funding mechanisms and support OS’s mission, we
found that (1) many OS agreements are not properly prepared, (2) OS’s process for reviewing
agreements is inadequate, (3) OS should develop internal policies and procedures for preparing
and reviewing agreements, and (4) OS does not sufficiently track and control its agreements. As
discussed below, there are several actions OS should take to address these concerns.


A.     Agreements are appropriate funding mechanisms and support OS’s mission

Based on our review of 32 OS agreements, we found that although 19 of the agreements did not
cite a legal authority, they covered appropriate activities that could be funded by an agreement.
We found that OS offices did not use agreements to circumvent procurement or financial
assistance guidelines and that none of the 32 agreements should have been a procurement
contract, grant, or cooperative agreement. In addition, all of the 32 agreements were properly
funded under applicable laws and legal authorities.

In addition, OS offices used the 32 agreements to support their specific mandates, by providing
mission-related services to Commerce bureaus and other agencies or in receiving services needed
to perform their mission. OS offices primarily provide financial, accounting, and personnel
services to Commerce and other agencies. OS offices also use agreements to obtain financial and
accounting services, printing, warehouse storage, and overseas security services. Without these
services, OS offices would not operate effectively.

Finally, because each OS office averaged only five agreements and the average agreement dollar
value per employee is only about $9,800 (see Table 5 below), we believe that OS offices did not
rely on reimbursable agreements for a substantial proportion of their resources. We calculated the
average agreement dollar value per employee to determine whether an office relied on agreements
for a substantial proportion of its resources, because the Department’s fiscal year 1997 budget did
not separately identify the funding for each OS office. Although OS had some offices with more
than five agreements and the Office of Financial Management (OFM) had a reimbursable
agreement for a substantial proportion of its resources, these were the only exceptions. OFM
receives all of its reimbursable funding from an agreement with the Patent and Trademark Office
for implementing PTO’s version of the Commerce Administrative Management System. Because
this system may eventually be implemented and used by all departmental offices and OFM’s
mission is to provide financial management services to all departmental offices, reimbursable
services to PTO for this project are clearly mission-related.




                                                30
U.S. Department of Commerce                                                                 Final Report IPE-10418
Office of Inspector General                                                                         September 1998



Table 5: Analysis of OS Reimbursable Agreements by Total Dollar Value and Dollar Value
         Per Employee

 OS Office                                             Number of        Dollar Value of         Dollar Value
                                                       Employees         Agreements             per Employee
 Office of Financial Management                                   35         $3,858,071               $110,231
 Office of White House Liaison                                     4              62,724                   15,681
 Office of General Counsel                                      184            2,021,455                   10,986
 Office of Civil Rights                                           28             146,100                    5,218
 Office of Administrative Services                              117              282,550                    2,415
 Office of Systems and Telecommunications
 Management                                                       33              69,879                    2,118
 Office of Acquisition Management                                 23              40,000                    1,739
 Office of Human Resources Management                             62               9,500                     153
 Office of Budget Management and Information
                                                                  64                    0                      0
 Office of Executive Budgeting and Assistance
 Management                                                       38                    0                      0
 Office of Security                                               30                    0                      0
 Office of Public Affairs                                         18                    0                      0
 Office of Legislative and Intergovernmental
 Affairs                                                           7                    0                      0

 Office of Policy and Strategic Planning                           6                    0                      0
 Office of Business Liaison                                        5                    0                      0
 Office of Small and Disadvantaged Business
 Utilization                                                       5                    0                      0
 Office of Consumer Affairs                                        3                    0                      0
 TOTAL                                                          662          $6,490,279                    $9,804
 Note: Excludes OCS and OIG; see Purpose and Scope for an explanation of these exclusions. The number of
 employees is based on the actual number employed as of October 27, 1997.




                                                       31
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



B.     OS agreements are not always properly prepared

We reviewed the sample of 32 OS agreements to determine whether the agreements were
properly prepared and justified. Many of the agreements lacked (1) citations to legal authority,
(2) written justifications, (3) necessary contract details, (4) signatures of authorized officials, or
(5) sufficient budget information. We believe these deficiencies could expose OS offices to legal
liability, misunderstood responsibilities, and excessive costs.

Nineteen of 32 OS agreements—primarily those between OS and departmental bureaus—failed to
cite any legal and/or funding authorities. As discussed on page 7, the legal authority affects the
treatment of funds transferred under the agreement and the period of availability of those funds.
In addition, many of the agreements were not adequately supported by written justifications.
Eight agreements also lacked necessary contract details, such as full project descriptions,
definitions of key terms, disclaimers for funding availability, and provisions for resolving
disagreements or negotiating amendments. Each of these provisions is necessary to make certain
that the terms of the agreements are fully understood by all parties.

We also found that 25 percent of the agreements we analyzed were not signed by one or both of
the authorized agreement representatives. While these agreements generally covered personnel
details, the lack of signatures raises the fundamental question of whether an agreement exists at
all. If an agreement is not valid, the other party may not be required to fulfill all terms and
conditions, thus putting the Department’s resources and credibility at risk.

Finally, 13 of 32 OS agreements did not include sufficient budget information. Most of these
agreements provided an overall cost estimate, but did not breakdown the estimate by major cost
categories. Without a cost estimate and budget summary, the parties and outside reviewers
cannot easily determine how agreement funds are to be spent, whether full costs will be
recovered, or whether joint projects are equitably apportioned.

OS officials should be more diligent about drafting agreements that adequately protect
Commerce’s interests. OS agreements should also provide sufficient information about the
proposed project to show that they are wise uses of Commerce resources and to ensure that each
party’s responsibilities are well understood.

C.     Oversight process for reviewing OS agreements is inadequate

We found that OS’s review process was inadequate, resulting in poor oversight, incomplete
agreements, and a wide range of other deficiencies. Currently, OS offices follow an inconsistent
and mostly undocumented process for preparing and reviewing agreements. In addition, only
some agreements are reviewed by OS’s budget, procurement, and/or legal offices, despite the

                                                  32
U.S. Department of Commerce                                                                Final Report IPE-10418
Office of Inspector General                                                                        September 1998



critical need for these offices to review agreements before they are signed by all parties.
Therefore, we believe that OS’s agreement review process—from budget to procurement to legal
to the appropriate program office—needs to be improved and documented.

OS budget review of agreements should be improved

The budgetary review of OS agreements should be performed by the Office of Executive
Budgeting and Assistance Management (OEBAM) to ensure that federal resources are wisely and
justifiably used. OEBAM would also determine that funds are available for obligation
agreements. Although OEBAM currently receives the annual budgets from all OS offices, it does
not receive a break-out of agreement funds included in those budgets. If OEBAM requests
documentation to better understand an OS office’s budget, the office might supply an agreement
in reply, and OEBAM then keeps the agreement on file. As a result, OEBAM does not have a
complete understanding of what resources are committed to agreements.

OEBAM should be reviewing budget documentation for all agreements before the agreements are
signed. OS’s internal guidance on agreements should state what budget documentation and detail
are necessary for OEBAM to approve the obligation of resources to a performing agency or
entity, or to receive reimbursable or advance funding from a sponsoring agency or entity.
OEBAM should be formally delegated the responsibility to (1) determine whether funds are
available for OS obligation agreements, (2) review budget documentation of every OS
reimbursable and obligation agreement for appropriateness, and (3) maintain a detailed summary
of OS obligations through agreements.

Procurement review of OS agreements is inadequate

We found that OS offices rarely prepare a D&F for interagency obligation agreements citing the
Economy Act and do not have D&Fs reviewed by a contracting officer. In the absence of review
by contracting officials, these agreements may be in violation of the FAR. The FAR requires
agencies that obtain goods or services from other agencies through Economy Act agreements to
prepare a D&F justifying that the purchase is in the best interests of the government and that the
supplies or services cannot be obtained as conveniently or economically from a private source. A
contracting officer or other official designated by the agency head must approve and sign the
D&F. We believe that contracting officers, who have training and experience in obtaining goods
and services, should conduct this review. Those OS offices, such as the OIG,19 that have their
own procurement functions should have their contracting officers review agreements. For all


         19
           As discussed in the Purpose and Scope section of this report, the OIG has a separate administrative staff,
including contracting officers, to ensure its independence within the Department.

                                                         33
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



other OS offices, OAM contracting officers should review and provide the necessary approval for
Economy Act agreements.

OS offices also do not prepare D&Fs and do not have D&Fs reviewed by a contracting officer for
Economy Act transfers within Commerce. Because there is no OS or departmental guidance on
preparing and justifying intra-agency Economy Act transfers, there is no standard for
documenting that the transfer complies with the Economy Act. OS should ensure that a standard
method of documenting and approving this determination is developed and that documentation of
the determination is required for all OS intra-agency Economy Act transfers.

Most OS agreements do not receive legal review

OS currently does not require or ensure that its agreements receive legal review. We could only
verify that two out of the 32 agreements we sampled were reviewed by OGC. As discussed on
page 17 of this report, according to an April 1994 OGC memorandum, Economy Act and joint
project agreements “should” be sent to OGC for review. However, bureau personnel have
interpreted this memorandum as allowing some amount of discretion. As a result, with no clear
procedure defining which agreements require legal review, some established or recurring
agreements do not receive the scrutiny, review, and oversight necessary to ensure that the
government’s best interests are protected. OS program officials, therefore, should work with
OGC to establish reasonable criteria for which OS agreements require legal review.

OS should formalize its programmatic review of agreements

OS also should develop a policy of when and how often an agreement should be reevaluated to
determine if the project is still fully justified and if it continues to be consistent with both OS and
Commerce missions. Currently, there is no established practice for reviewing OS agreements
after they are implemented. OS should ensure that its agreements are reviewed, and revised or
renewed as appropriate, at least every three years. Any policy should also indicate which officials
or offices are responsible for this review.

D.     OS should develop internal policies and procedures for preparing and reviewing
       agreements

We found that OS has not developed and implemented policies and procedures to ensure that
agreements are consistently and properly prepared and comply with the specific agreement
authorities. As discussed on page 21, there is also limited Department-wide guidance on
agreement preparation. In the absence of adequate guidance, OS officials stated that the primary
basis for preparing agreements is using a previous agreement as a model. Obviously, any
problems with previous agreements are then perpetuated through new agreements.

                                                  34
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



As discussed above in section II, subsections B and C, we are concerned about how OS drafts and
reviews agreements. To help correct these deficiencies, OS should prepare internal guidance for
OS offices that outlines when an agreement is appropriate, the content and steps for preparing and
implementing agreements, and the provisions necessary for compliance with the forthcoming
Department-wide guidance we discuss above. In particular, the guidance should list and explain
relevant legal authorities, require sufficient justifications for the legal authority cited, provide for
necessary contract details and authorized signatures, and require agreements to include adequate
budget information.

The OS guidance should also establish the necessary review processes for agreements.
Thresholds and criteria for OGC review should be developed and clearly stated. In addition, the
guidance should specifically state which OS offices are responsible for budget, procurement, legal,
and programmatic review of OS agreements.

Once completed, OS should distribute this guidance and other information relevant to preparing
and processing agreements through its intranet and present the information at OS conferences.
Any subsequent changes in federal, departmental, or agency regulations or procedures and
applicable laws should also be widely distributed. Finally, OS should provide training on how to
properly prepare and process agreements to program and administrative staff responsible for
agreements.



The Chief Financial Officer agreed with our recommendation that specific Office of the Secretary
policies and procedures should be developed and implemented as needed to supplement the
Department-wide guidelines. The Chief Financial Officer also agreed that Office of the Secretary
policies and procedures will be broadly disseminated and made electronically available, and that
training will be provided to Office of the Secretary personnel involved in developing and
administering agreements.

E.     Database to track and control OS agreements is needed

During our review of OS agreements, we found that no OS office has established a database for
tracking its agreements. While each OS office was able to provide us with a basic list of its
current agreements, we found that OS lacks a comprehensive inventory. As a result, cataloging
past and present OS agreements was extremely difficult. In the end, we had to contact 19
different OS offices to request and obtain agreement information.

Even after obtaining information from each office, we were not certain whether we had received
all OS agreements. Some OS offices stated that they had no agreements, while others believed


                                                  35
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



they had provided all agreements. However, after reviewing agreement information and
interviewing OS personnel, we found that some OS agreements were not initially provided to us.
This occurred because OS offices do not track and control their agreements, thus creating
inconsistent reporting of agreements between OS offices. In addition, we found that each office
has a different way of classifying agreements, resulting in some agreements frequently being
overlooked. Finally, some offices are still tracking expired agreements and others record open,
but inactive agreements. Consequently, we question the reliability of OS’s information on
agreements.

We evaluated three existing alternatives for tracking OS agreements. However, none of the
databases or tracking systems were adequate to manage and administer OS agreements.

l      OGC’s tracking system is a word processing-based system containing opinions and
       comments made by OGC attorneys on various legal matters, including review of
       agreements. Because this system contains textual information, such as agreement
       description, number, and attorney comments, attorneys are able to research prior opinions
       and related issues to help in reviewing current agreements. While this information is
       useful, a word processing file makes data searches and extractions time-consuming tasks.
       OGC cannot determine which agreements its system contains without painstakingly
       searching through the file on a chronological basis. OGC’s word processing system also
       does not reflect whether its suggested changes were made or whether an agreement has
       been signed.

l      OS’s accounting system receives and computes OS and departmental financial information
       for various purposes. The system records total reimbursements from departmental
       bureaus and offices for rent, telephones, and support, but not reimbursables by individual
       agreement or office. The system was not designed to function as a database, meaning it
       cannot receive and compile voluminous agreement information. In addition, OS’s
       accounting system will eventually be replaced by the Commerce Administrative
       Management System. Therefore, changes to the existing accounting system would not be
       practical.

l      The Commerce Procurement Data System and the Commerce Small Purchase System are
       databases that compile and track procurement awards above and below $100,000,
       respectively. However, departmental officials stated that both databases have been
       extensively modified for procurement awards and, therefore, would need major
       enhancements to include agreements. In addition, the Commerce Administrative
       Management System will likely replace these systems.



                                               36
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



Because the three existing alternatives mentioned above are not appropriate tools to document
OS agreements, OS needs to establish a new centralized system to adequately inventory, track,
and control its agreements. This system should be compatible with the Department-wide database
for agreements that we are recommending. Including key elements (such as unique numbers,
project titles, parties, and contact names or offices) in the database, would allow users to quickly
respond to inquiries on particular agreements, identify the extent and nature of OS agreements,
and facilitate the cross-checking of agreements between OS offices. An OS database would also
help OS offices administer and manage their agreements by identifying which agreements are due
for renewal, termination, or review. As a result, OS agreements would be recorded and
appropriately reviewed, thus reducing potential problems.



The Chief Financial Officer agreed with our recommendation that a centralized system should be
established to more effectively inventory, track, and control OS agreements. He is committed to
working with appropriate parties within the Department to determine the best method to
accomplish this. The General Counsel agreed that each bureau should develop its own database
designed to meet its own needs but the Department should specify the type of information that
each bureau’s database should contain. The General Counsel stated that the Chief Financial
Officer may then determine whether maintenance of a central database, in addition to bureau
databases, will provide sufficient benefits to justify the resources that will be required to maintain
it.




                                                  37
U.S. Department of Commerce                                                     Final Report IPE-10418
Office of Inspector General                                                             September 1998



                                    RECOMMENDATIONS

We recommend that the Chief Financial Officer and Assistant Secretary for Administration and
the General Counsel direct appropriate officials to take the following actions for the Department
of Commerce and the Office of the Secretary:

Department of Commerce

1.     Prepare formal policies and procedures, such as a Department Administrative Order or
       handbook, outlining the types of agreements that can be entered into by Commerce
       bureaus; the minimum necessary contents and steps for preparing agreements; standard
       language or form agreements; and the review, approval, and renewal policies and
       procedures that should be followed by all Commerce bureaus. The new directive should:

       l       Require all Commerce agreements to include at least the following items: citation
               of legal authorities, applicable written justifications, signatures by the appropriate
               bureau and departmental officials, total project costs, budget summaries, and
               termination dates and/or review periods. There should also be formal procedures
               that ensure agreements prepared by external parties contain all necessary
               information.

       l       Require bureaus to prepare D&Fs for interagency transfers authorized by the
               Economy Act. For all intra-agency Economy Act transfers, require bureaus to
               prepare justifications that support their determination that purchasing from a
               federal entity is cheaper or more convenient than purchasing from a commercial
               entity.

       l       Direct bureaus to establish appropriate internal review processes for each type of
               agreement. Explicitly state the responsibilities of the various offices, the minimum
               path of review and approval, and thresholds for review.

       l       Direct the bureau budget offices to review budget documentation for every
               agreement and to approve the obligation of resources to a performing agency or
               entity or the receipt of reimbursements/advances from a sponsoring agency or
               entity.

       l       State that Economy Act orders and supporting D&Fs, above a specific threshold,
               must be reviewed by OAM contracting officers. Economy Act orders below that
               threshold should be delegated to bureau contracting officers or other designated
               officials for review.

                                                 38
U.S. Department of Commerce                                                      Final Report IPE-10418
Office of Inspector General                                                              September 1998



       l       Provide generic, Department-wide standards for which agreements require OGC
               and/or bureau counsel review. For those bureaus that require greater oversight,
               OGC should negotiate more specific criteria for legal review of their agreements.

       l       Require the bureaus to perform initial and periodic review of programmatic
               justifications for every agreement. Reviews should be at least every three years.

2.     Disseminate all formal guidance and other information relevant for preparing and
       processing agreements through the Department’s intranet and at departmental
       conferences. Any subsequent changes in federal, departmental, or agency regulations or
       procedures and applicable laws should also be widely distributed.

3.     Upgrade or change the format of OGC’s and the bureau counsels’ tracking systems to
       ensure that legal reviews of agreements are timely and to provide information about the
       status of legal review. Also, designate central points of contact in OGC and bureau
       counsel offices for determining the status of legal review on any particular agreement.

4.     Establish a new Department-wide database of all agreements. The Department should
       determine whether it will (1) develop one standard system or database program that each
       bureau can access to add, modify, or delete agreements; or (2) allow each bureau to
       maintain its own database that is compatible with requirements specified by the
       Department and periodically provide the information electronically to be uploaded into a
       central list at the Department level.

Office of the Secretary

1.     Consistent with any forthcoming departmental guidance, prepare internal policies and
       procedures for OS offices that outline the contents and steps for preparing and
       implementing agreements. In particular, the OS guidance should:

       l       Require all OS agreements to include at least the following items: citation of legal
               authorities, applicable written justifications, signatures by the appropriate officials,
               total project costs, budget summaries, and termination dates and/or review
               periods. There should also be formal procedures that ensure agreements prepared
               by external parties contain all necessary information.

       l       Direct OEBAM to review all OS agreements to ensure funding availability and
               compliance with the federal, departmental, and OS guidelines.



                                                  39
U.S. Department of Commerce                                                 Final Report IPE-10418
Office of Inspector General                                                         September 1998



       l       Direct OAM contracting officers to review all OS agreements and supporting
               D&Fs before an agreement is signed.

       l       Establish reasonable criteria for which OS agreements require legal review.

       l       Ensure that OS agreements are reviewed, and revised or renewed as appropriate,
               at least every three years.

2.     Distribute relevant information for preparing and processing agreements through OS’s
       intranet and at OS conferences. Any subsequent changes in federal, departmental, or
       agency regulations or procedures and applicable laws should also be widely distributed.

3.     Provide training on how to properly prepare and process agreements to all OS program
       and administrative staff responsible for agreements.

4.     Establish a centralized system to adequately inventory, track, and control OS’s
       agreements. This system should be compatible with the proposed Department-wide
       database for agreements.




                                               40
U.S. Department of Commerce                         Final Report IPE-10418
Office of Inspector General                                 September 1998
      APPENDIX A-OFFICE OF ADMINISTRATION’S RESPONSE TO REPORT




                                 41
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              42
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              43
U.S. Department of Commerce                        Final Report IPE-10418
Office of Inspector General                                September 1998
     APPENDIX B-OFFICE OF GENERAL COUNSEL’S RESPONSE TO REPORT




                                44
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              45
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              46
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              47
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              48
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              49
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              50
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              51
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              52
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              53
U.S. Department of Commerce        Final Report IPE-10418
Office of Inspector General                September 1998




                              54
